WR-B-00-07




         AUDIT
        REPORT




                                VEHICLE USE AT LAWRENCE
                                  LIVERMORE NATIONAL
                                      LABORATORY




                                         SEPTEMBER 2000




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                          September 20, 2000


MEMORANDUM FOR THE MANAGER, OAKLAND OPERATIONS OFFICE

FROM:              Lawrence R. Ackerly, Regional Manager (Signed)
                   Western Regional Audit Office
                   Office of Inspector General

SUBJECT:           INFORMATION: Audit Report on "Vehicle Use at Lawrence
                   Livermore National Laboratory"

BACKGROUND

The main site of Lawrence Livermore National Laboratory (Livermore) occupies one square mile. For
on-site transportation of its 7,300 full-time equivalent employees, Livermore leased vehicles from
General Services Administration (GSA), operated a taxi service, and provided bicycles. A network of
sidewalks and paved trails was available for persons bicycling or walking between site facilities. In
Fiscal Year 1999 Livermore leased about 1,260 motor vehicles from GSA at a cost of about $3.6
million.

Congress enacted requirements for Federal agencies to efficiently manage and reduce the cost of
Federal fleet operations. Audits at other Department of Energy facilities had determined that
contractors' vehicle fleets were too large and did not meet congressional requirements to reduce the cost
of fleet operations. Thus, our audit objective was to determine if the allotment of government vehicles
at Livermore was too large.

RESULTS OF AUDIT

Although we found no significant problems with the allotments of nondiscretionary operational vehicles
and other purpose vehicles, the allotment of 516 on-site discretionary vehicles was too large. Not one
of 31 randomly selected on-site discretionary vehicles met the laboratory's use standard of 9.2 trips per
day. In fact, Livermore would need to reduce the number of on-site discretionary vehicles by 363 to
meet its established usage standard. The vehicle fleet was larger than necessary because Oakland
allowed Livermore to count and report trips based on mileage rather than trips. Livermore could reduce
its vehicle lease costs by at least $690,000 per year by returning vehicles that do not meet the local use
standards. We recommended that vehicles not meeting the use standard be returned to GSA. We also
recommended changes to the methodology for measuring vehicle use.

MANAGEMENT REACTION

Management did not concur with the results, conclusions, and recommendations in the audit report.
VEHICLE USE AT LAWRENCE LIVERMORE NATIONAL
LABORATORY

TABLE OF
CONTENTS


                Overview

                Introduction and Objective ............................................... 1


                Conclusions and Observations ........................................ 1


                Allotment Of On-Site Discretionary Vehicles
                Too Large


                Details of Finding ............................................................ 3


                Recommendations and Comments ................................. 5


                Appendices


                Scope and Methodology.................................................. 8


                Sampling Objectives, Technique, and Evaluation ......... 10


                Related Office of Inspector General Reports................. 11
Overview
INTRODUCTION      The main site of Lawrence Livermore National Laboratory (Livermore)
AND OBJECTIVE     occupies one square mile.1 To meet the transportation needs of its
                  7,300 full-time equivalent employees, Livermore leased vehicles from
                  the General Services Administration (GSA), operated an on-site taxi
                  service, and provided bicycles.

                  In Fiscal Year (FY) 1999 Livermore leased about 1,260 motor vehicles
                  from GSA at a cost of about $3.6 million. Livermore assigned each
                  vehicle to one of three major categories.

                  On-site Discretionary Vehicles. These 616 vehicles2--mainly cars,
                  vans, and light duty trucks--were to be used primarily for on-site
                  transportation of lab employees and light materials.

                  Nondiscretionary Operational Vehicles. These 565 vehicles--mainly
                  trucks and vans--were used primarily for plant maintenance and utility
                  repairs on the site.

                  Other Purpose Vehicles. These 79 vehicles were used for such
                  purposes as off-site travel and emergency responses.

                  Congress enacted the Consolidated Omnibus Budget Reconciliation
                  Act of 1985 requiring agencies to take actions to improve the
                  management and efficiency of their fleet and to reduce the cost of the
                  fleet operations. Audits at other Department of Energy (DOE) facilities
                  had determined that contractors' vehicle fleets were too large (see
                  Appendix 3).

                  The audit objective was to determine if the allotment of government
                  vehicles at Livermore was too large.

CONCLUSIONS AND   Although we found no significant problems with the allotments of
OBSERVATIONS      nondiscretionary operational vehicles and other purpose vehicles, the
                  allotment of on-site discretionary vehicles was too large. Specifically,
                  not one of 31 randomly selected on-site discretionary vehicles met the
                  laboratory's own usage standard. Based on actual usage, Livermore
                  would need to return 363 vehicles to GSA before the standard would be
                  met, an action that would reduce leasing cost by at least $690,000 per
                  year.
                  ————————————–
                  1
                    In addition, Livermore has Site 300, an approximately 11 square-mile-site located
                  about 15 miles southeast of Livermore.
                  2
                    We eliminated from our review 100 vehicles that Livermore replaced sometime
                  during the fiscal year. Therefore, only 516 on-site discretionary vehicles were
                  included in our review.



Page 1                                                     Introduction And Objective/
                                                           Conclusions And Observations
         The vehicle fleet was larger than necessary because Oakland Operations
         Office (Oakland) approved procedures for measuring use that did not
         count the actual number of trips taken. Rather, Oakland allowed
         Livermore to count and report trips based on mileage.

         In addition to government vehicles, Livermore personnel have other
         options for getting around the site. Livermore's taxi service operated on
         an on-call basis with five shuttle buses, each having a capacity of 8 or
         16 persons. These taxis could transport employees anywhere on the site
         within seven minutes. A review of one month's dispatch logs showed
         typical ridership to be about four individuals at any given time. Our
         personal observations confirmed the low ridership. During the day that
         we rode a 16-passenger shuttle bus, the greatest number of riders
         observed was six, though there were typically only one or two riders at
         a time.

         Livermore also had about 800 bicycles available for employee use on
         the site. A network of sidewalks and paved trails was available for
         persons bicycling or walking between site facilities. Another
         alternative for on-site transportation was employee use of privately-
         owned vehicles on a reimbursement basis.

         In our opinion, DOE should consider these issues when preparing its
         yearend assurance memorandum on internal controls.




                                          ________(Signed)_______
                                          Office of Inspector General




Page 2                                      Conclusions And Observations
Allotment Of On-Site Discretionary Vehicles Too Large
Vehicles Do Not Meet   The allotment of on-site discretionary vehicles at Livermore was too
Local Use Standard     large. Specifically, none of 31 randomly selected vehicles had met
                       Livermore's standard of 9.2 trips per day. In fact, a majority of the 31
                       vehicles (28 of 31) were used less than half of the standard of 9.2 trips
                       per day. Actual use of the 31 vehicles is shown in the following table.

                                          Actual Use of 31 Sample Vehicles

                                      Number of Vehicles Average Daily Trips
                                              4                  1
                                              3                  2
                                              12                 3
                                              9                  4
                                              3                  5-6

                       A projection of the sample results showed that none of the 516 vehicles
                       at Livermore met the required usage of 9.2 trips per day. Based on
                       current usage of these 516 vehicles, Livermore could meet its
                       requirement of 9.2 trips per day with 153 on-site discretionary vehicles,
                       which is 363 fewer vehicles than it has. Therefore, the fleet was larger
                       than necessary.

Use Standards          DOE's policy is to keep the number of motor vehicles at the minimum
Minimize Fleet Size    needed to satisfy program requirements. To implement this policy,
                       DOE's Property Management Regulation (41 CFR 109-38.51,
                       Utilization of Motor Vehicles) recommends two methods for
                       determining the appropriate number of vehicles for a site. One method
                       is the use of DOE-wide standards, for example, 12,000 miles per year
                       for sedans. The other method--establishing local use standards--is
                       recommended for situations where DOE-wide standards may not be
                       relevant. In either case, the Property Management Regulation requires
                       that DOE and its contractors maintain individual motor equipment use
                       records, such as trip tickets or vehicle logs, to evaluate the
                       appropriateness of assignment and adequacy of use being made.

                       In 1992, the laboratory contracted with a transportation consulting firm
                       to develop a means to efficiently move people and material around the
                       lab. The consultant's report cited the constrained size of the laboratory
                       as the basis for discarding DOE-wide mileage standards and
                       implementing a trip standard for on-site discretionary vehicles.
                       According to the consultant's report, trip counts provided an easily
                       defined tool to size the vehicle fleet. Trip counts also made fleet sizing
                       adjustments much easier to correlate; for example, an increase in use of



Page 3                                                                     Details Of Finding
                      taxis correlated directly to a decrease in trips in government vehicles,
                      thereby decreasing fleet size. The consultant found that on-site
                      discretionary vehicles were averaging 7.5 trips per day, with the
                      average trip being eight-tenths of a mile. At nearly 250 days per year
                      and eight-tenths of a mile per trip, the consultant noted that a given
                      vehicle would travel only around 1,500 miles per year, or 125 miles per
                      month, a distance far short of the then DOE minimal requirement of
                      555 miles per month.

                      Based on Livermore's trip information and other data taken from
                      vehicle logs and surveys, the consultant calculated a use standard of 9.2
                      trips per day for on-site discretionary vehicles. Livermore adopted the
                      standard with the approval of Oakland. Livermore's performance was
                      measured against this standard as part of its contract with DOE.

Usage Measured By     Although the standard was 9.2 trips per day, usage was measured by
Miles Driven Rather   converting mileage to trips rather than by counting trips. Reporting to
Than Trips Taken      Oakland quarterly, Livermore divided total miles driven by all on-site
                      discretionary vehicles by eight-tenths, and then divided the resulting
                      "trip count" by the number of vehicles. Based on this methodology, all
                      on-site discretionary vehicles were justified in FY 1999. This
                      methodology for measuring trips appeared in the consultant's report.

                      Several basic problems, however, existed with this methodology. First,
                      the number of trips actually taken was never identified. Having
                      adopted a trip standard because a mileage standard was deemed
                      inappropriate, use was effectively measured by miles. A vehicle
                      incurring 153 miles per month (or 1,840 miles per year) meets what is
                      held forth as a trip standard. As shown earlier, none of the sampled
                      vehicles made 9.2 trips per day and most made 3 or fewer trips per day.
                      Second, the methodology allowed off-site trips to inflate reported use.
                      For example, one vehicle was used for a trip to Walnut Creek,
                      California, a round trip of 62 miles. Livermore's mileage-to-trips
                      method for reporting vehicle use made this one trip count as 77 trips (62
                      miles divided by .8). Finally, the use reported was the average for all
                      on-site discretionary vehicles rather than the use of individual vehicles.
                      This allowed vehicles with few monthly miles to be retained because
                      their low use was offset by vehicles putting on more than 153 miles per
                      month.

                      To determine if vehicles were actually driven 9.2 trips per day would
                      require that users maintain vehicle logbooks or trip reports for each
                      vehicle. However, Livermore did not have such a requirement. Of



Page 4                                                                   Details Of Finding
                  the 88 vehicles for which we requested documentation that would show
                  the number of trips each day, Livermore had documentation for only
                  31; thus, there was no documentation for 57 of the vehicles. Livermore
                  stated that it did not require vehicle users to maintain logbooks because
                  of inherent human error in keeping them. Such records, however,
                  would provide sufficiently detailed information to allow management to
                  assess the number of vehicles at the laboratory as being too few, too
                  many, or about right.

                  In spite of these problems, Oakland allowed Livermore to calculate and
                  report vehicle usage this way to support its performance measurements.
                  For FY 1999, Oakland rated Livermore's performance as outstanding
                  for vehicle utilization. We determined, however, that the logic used to
                  justify the retention of Livermore's on-site discretionary vehicles was
                  faulty and actual trips did not support the retention of a large number of
                  such vehicles.

Potential For     Livermore could reduce its vehicle lease costs by at least $690,000 per
Savings           year by returning 363 underused on-site discretionary vehicles to GSA.
                  As noted in the transportation consultant's report, greater use of
                  alternative means of on-site transportation already available-- taxis,
                  bicycles, sidewalks, trails, and privately-owned vehicles--correlates
                  directly with fewer government-owned vehicles. Thus, more use of
                  these alternative transportation means should enable additional
                  reductions in the number of vehicles.

RECOMMENDATIONS   We recommend that the Manager, Oakland Operations Office require
                  Livermore to:

                  1. Modify its on-site discretionary vehicle utilization procedures to:

                     (a) use vehicle logs or trip tickets to count and report the actual
                     number of on-site trips made by each on-site discretionary vehicle;
                     and,

                     (b) report actual trips by individual vehicle in the quarterly vehicle
                     utilization reports.

                  2. Return to GSA those vehicles that do not meet the local use
                     standard of 9.2 trips per day.




Page 5                                             Recommendations And Comments
MANAGEMENT         Management did not concur with the reported results, conclusions, and
COMMENTS           recommendations and stated that the Livermore fleet size projected in
                   the report is materially misstated. Oakland stated that the fleet is fully
                   utilized at the institutional level. Management stated that the Office of
                   Inspector General (OIG) did not use the methodology that Oakland
                   approved for determining utilization of on-site discretionary vehicles in
                   (1) reporting the usage results of the 31 vehicles and (2) projecting the
                   audit's sample results to Livermore's entire on-site discretionary fleet.
                   As a result, the projected cost saving of $690,000 annually based on
                   eliminating 363 vehicles is unrealistic. In fact, all 31 vehicles met the
                   trip standard or were identified as underutilized and subsequently
                   rotated to other Livermore organizations.

                   Oakland stated that a trip was defined as eight-tenths of a mile to ensure
                   site-wide consistency in the application of the utilization criteria. The
                   methodology used to measure use was felt to be the most efficient and
                   cost effective method available. It eliminates the ambiguity of "What is
                   a trip?" and allows Livermore to collect, record, monitor, and report
                   utilization data electronically. This saves significant effort in the field
                   and within the Fleet Management organization in terms of collecting,
                   maintaining, deciphering, and transcribing trip data each month from
                   516 manual logs.

                   Management also stated that the OIG used non-mandatory sign-out
                   logs for its sample. Oakland stated that it had told the auditors that
                   Livermore does not use vehicle logs to calculate utilization. The logs
                   the auditors reviewed were merely sign-out sheets intended to track
                   who is using the vehicle and had never been used to track utilization.
                   The auditors equated a single sign-out entry in the vehicle log to one
                   "trip." In fact, multiple destinations often accompany a single sign-out.
                   Each destination should be considered a separate trip, not the singular
                   sign-out entry used in the report. At a minimum, the auditors should
                   have interviewed employees to establish an understanding of the sign-
                   out procedures prior to making projections to the Laboratory's
                   discretionary vehicle fleet size.

AUDITOR COMMENTS   We disagree that the report's projected fleet size or savings are
                   misrepresented. Based on the consultant's study, Livermore determined
                   that a mileage standard was inappropriate and adopted a trip standard.
                   We agree that trips may be a better method to use than mileage because
                   of the constrained size of the laboratory, but we disagree with the
                   methodology of using actual mileage driven by all vehicles and
                   dividing that by eight-tenths to arrive at the number of trips. Using



Page 6                                              Recommendations And Comments
         this mileage-to-trip methodology does not address trip counts. Rather,
         it is an attempt to retrofit a mileage standard to a trip standard. If
         Oakland believes that 1,840 miles per year is a justifiable use standard
         for Livermore's on-site discretionary vehicles, then the standard should
         be presented for what it is, 1,840 miles per year. Approving a standard
         based on trips and then measuring trips by miles merely obscures what
         the standard really is, a mileage standard of 1,840 miles per year.

         In addition, management stated that the mileage-to-trip calculation
         eliminates the ambiguity of "What is a trip?" The study addressed this
         issue by stating: "A trip is easily defined as the movement of a vehicle
         from point A to point B in support of a Laboratory activity. By
         measuring trip counts to size the fleet we have an easily defined
         tool." (underscoring added).

         Oakland implied that a measurement of trips could not be done
         electronically as mileage currently is. With computer-based technology
         readily available in today's electronic environment, we disagree with
         this comment. Manual input may be required but would not require the
         significant effort implied by management.

         As stated by Oakland, vehicle logs were not required to be kept by
         Livermore. Therefore, to determine the actual number of trips taken,
         we used the best available data source--the vehicle sign-out logs--to
         measure actual use. This same approach was used in the consultant
         study to develop the recommended usage standard of 9.2 trips per day.
         While we agree that one sign-out could equate to more than one trip, or
         that a vehicle could have been used without being signed out on
         occasion, the logs were the most credible documentary evidence of use
         that existed. In fact, for a majority of the organizations from which we
         received vehicle sign-out logs, it was standard practice to sign out for
         the use of a vehicle. In determining the number of trips for the 31
         randomly selected vehicles in our review, we counted trips based on the
         destinations recorded on the vehicle logs. For example, if the log noted
         that an individual checked out a vehicle and traveled to three different
         locations before returning, we counted that as three trips. Finally, while
         it is conceivable that some individuals used vehicles without
         documenting their use on the vehicle log, such instances would have to
         occur frequently before the vehicles reviewed could meet the criteria of
         9.2 trips per day.




Page 7                                    Recommendations And Comments
Appendix 1
SCOPE         The audit was performed at Oakland Operations Office in Oakland,
              California, and at Lawrence Livermore National Laboratory, in
              Livermore, California, from August 1999 to May 2000.

METHODOLOGY   To accomplish the audit objective, we:

                 •   interviewed DOE and Livermore personnel;

                 •   examined Federal and DOE property management regulations;

                 •   examined vehicle use standards and analyzed use data for a
                     sample of on-site discretionary vehicles, nondiscretionary
                     operational vehicles, and other purpose vehicles;

                 •   reviewed vehicle justification files;

                 •   observed taxi ridership;

                 •   reviewed contract provisions for Government Performance and
                     Results Act of 1993 performance measures related to the audit
                     objective; and,

                 •   reviewed prior OIG audit reports.

              We used statistical sampling methods to select the initial sample of
              28 on-site discretionary vehicles, 16 nondiscretionary operational
              vehicles, and 6 other purpose vehicles. With minor exception, we
              found that nondiscretionary operational vehicles and other purpose
              vehicles met the applicable local use standards. Only 11 out of the
              28 selected on-site discretionary vehicles had logs or sign-out sheets
              available for review and none of the 11 met the local use standard.
              We then expanded the sample of on-site discretionary vehicles by
              randomly selecting 60 additional vehicles for review. Of the 60
              vehicles, only 20 had vehicle logs or sign-out sheets available for
              review. We statistically evaluated the total sample of 31 on-site
              discretionary vehicles as described in Appendix 2.

              The audit was performed in accordance with generally accepted
              government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, we
              assessed the significant internal controls with respect to fleet




Page 8                                                   Scope And Methodology
         management operations over GSA leased vehicles, including the
         controls for using, justifying, and monitoring the fleet. Since we relied
         on computer-processed data stored on Livermore's Fleet Management
         System, we assessed the reliability of the data on a test basis and
         concluded that the data could be relied upon. Because our review was
         limited, it would not necessarily have disclosed all internal control
         deficiencies that may have existed at the time of our audit. We
         discussed the finding with representatives of Oakland on June 2, 2000,
         and Livermore on June 5, 2000.




Page 9                                             Scope And Methodology
Appendix 2
                              Sampling Objectives, Technique, And Evaluation


Objectives

The sampling objective was to determine the number of on-site discretionary vehicles that did not meet
the minimum average use criteria of 9.2 trips per day.

Technique

We used the U.S. Army Audit Agency statistical sampling software to randomly select and evaluate the
sample. The sampling universe and sampling units consisted of 516 on-site discretionary vehicles in use
at Livermore during FY 1999. We established a confidence level of 90 percent with an expected error
rate of 50 percent, which resulted in a sample size of 31 vehicles. The sampling units were individual
vehicles accounted for in Livermore's Fleet Management System.

We used attribute sampling. The attribute tested was whether a vehicle averaged 9.2 trips per day as
required by Livermore's Fleet Management Policies and Procedures. Any vehicle that did not meet the
required 9.2 trips per day was considered a sampling error. Vehicle trips were counted based on
available vehicle sign-out and log sheets maintained by the vehicle users. Because vehicle sign-out and
log sheets were not available for all vehicles we had to select 88 vehicles from the random numbers
generated to review usage for 31 vehicles. During the survey phase, which reviewed usage for the
months of August and September 1999, 28 vehicles were selected to obtain documentation for 11.
During audit verification, which reviewed usage for January and February 2000, we had to select 60
vehicles in order to obtain documentation for 20.

Evaluation

Based on our review of sign-out and vehicle log sheets, none of the 31 vehicles met the usage
requirement of 9.2 trips per day. As a result, we are 90 percent confident that none of the 516 vehicles
met the daily usage criteria of 9.2 trips per day.

We also used the sample to estimate the number of vehicles needed to meet Livermore's usage
requirements. To do so, we determined the number of trips actually taken by the sample units and
projected the number of total trips that would have been taken by all 516 on-site discretionary vehicles.
The number of total trips was then divided by the standard of 9.2 trips. Based on this projection,
Livermore could justify 153 vehicles to meet its established usage standard. Therefore, 363 of the 516
vehicles could be returned to GSA.




Page 10                                                        Sampling Objectives, Technique, And
                                                               Evaluation
Appendix 3
                                 Related Office Of Inspector General Reports


•   Vehicle Fleet Management at the Idaho National Engineering and Environmental Laboratory,
    WR-B-99-02, March 8, 1999

    45 percent of light vehicles (232 of 514) were used less than 80 percent of the local mileage
    standards.

•   Audit of Light Vehicle Fleet Management in the Department of Energy, DOE/IG-0362,
    December 5, 1994

    46 percent of vehicles (2,776 of 5,999) at four operations offices were used less than local use
    standards.

•   Audit of Light Vehicle Fleet Management at the Idaho National Engineering Laboratory,
    WR-B-93-7, September 29, 1993

    41 percent of vehicles (232 of 567) were used less than 80 percent of the local mileage standards.

•   Management of Light Vehicles at the Savannah River Site, ER-L-91-11, September 10, 1991

    22 percent of light vehicles (311 of 1,436) were used less than the local mileage standard.




Page 11                                                Related Office Of Inspector General Reports
                                                                      Report No.: WR-B-00-07


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov


       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
